                         NATIONAL SCIENCE FOUNDATION
                               4201 Wilson Boulevard
                             ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL




MEMORANDUM


DATE:         March 25, 2011

TO:           Martha A. Rubenstein
              Director and Chief Financial Officer
              Office of Budget, Finance, and Award Management (BFA/OAD)

FROM:         Dr. Brett M. Baker /s/
              Assistant Inspector General for Audit

SUBJECT:      Limited Scope Review of Recovery Act Quarterly Reporting Processes –
              Institute of Global Environment and Society, OIG Report No. 11-1-006


        As part of our oversight responsibilities, the Office of Inspector General (OIG)
has conducted reviews of institutions that have received National Science Foundation
(NSF) grants funded by the American Recovery and Reinvestment Act (ARRA or
Recovery Act) to assess the overall quality of required quarterly reporting. Such
quarterly reports contain detailed information on ARRA projects and activities and are
the primary means for keeping the public informed about the way funds are spent and the
outcomes that are achieved. Our review objectives were to determine whether the
Institute of Global Environment and Society (IGES or the Institute) had established an
adequate system of internal controls to provide reasonable assurance that (1) Recovery
Act funds were segregated and separately tracked in its project cost accounting system
and (2) quarterly reporting was timely, accurate, and fully compliant with Section 1512
ARRA reporting requirements. Detailed description of background, objectives, scope,
and methodology can be found in Appendix A.

Results of Review

       Our review found that IGES had properly segregated the $7.2 million in NSF
funds awarded for its single ARRA grant in its accounting system and submitted
Recovery Act quarterly reports in a timely manner. However, the Institute lacked a
thorough understanding of the intricacies of ARRA reporting requirements to ensure the
most complete and accurate data is reported and fully compliant with Section 1512

                                           1
requirements. As a result, our review of the March and June 2010 quarterly reports
disclosed that five of the eight data elements we reviewed were correctly reported while
the other three data elements were incorrectly reported. Specifically, IGES accurately
reported the following five data elements: funds received/invoiced, sub-award amounts,
quarterly activities/project description, project status, and final report status. However,
the Institute had not established adequate processes to accurately report the number of
ARRA jobs, vendor payments, and expenditures. In addition, IGES needed to improve
its process for checking the suspension and debarment status of vendors for ARRA
grants.

        The exceptions identified during our review occurred primarily due to a lack of
comprehensive understanding of the OMB reporting requirements. Given the volume
and complexity of the OMB guidance, the last minute changes to the guidance each
quarter, and the volume of ARRA data required to be reported within 10 days after the
end of each quarter, this was understandably a difficult process for any ARRA grant
recipient. As a small recipient with only a single Recovery Act award and no additional
personnel to handle the increased responsibility of reading, interpreting, and properly
applying the reporting guidance, this was undoubtedly a daunting challenge.

        Nevertheless, given the unprecedented Recovery Act accountability and
transparency goals, the development of effective processes for ensuring ARRA data
quality are critical factors for fulfilling the Institute’s responsibilities under its NSF award
agreement. Without complete and accurate reporting of ARRA project information and
activities, the public and other stakeholders cannot clearly determine whether Recovery
Act funds are being spent as intended, thus undermining the integrity of the stimulus
funding and refuting its promise of increased accountability and transparency.

        A draft of this memorandum was provided to IGES management for its review
and comment. In addition, a written outline of the review results was presented to
management at the completion of our onsite review work so that timely actions could be
taken to implement improvements needed to promote the highest degree of transparency
and accountability over Recovery Act funds. IGES generally agreed that the audit
findings were factually accurate and has taken actions to implement all audit
recommendations. However, the Institute did not agree that the ARRA reporting errors
we identified were caused by a lack of thorough understanding of federal reporting
requirements. Rather, it believed that the three key ARRA data elements incorrectly
reported were caused by “relatively minor procedural errors.” We have provided our
response to IGES’ comments in this regard after recommendation 1.2a to reaffirm our
audit conclusion. The Institute’s written comments in their entirety are included in
Appendix B.

        To help ensure the recommendations are resolved within six months of audit
report issuance pursuant to Office of Management and Budget Circular A-50, please
provide the audit resolution memorandum for our review when NSF has received an
acceptable IGES Corrective Action Plan. Each audit recommendation should not be
closed until NSF, in coordination with the audit oversight agency, the National

                                               2
Aeronautics and Space Administration (NASA), determines that IGES has adequately
addressed the recommendations and proposed corrective actions have been satisfactorily
implemented. Please note that we have sent a copy of the audit report under separate
cover to Ms. Debra Pettitt, NASA-OIG.

        We appreciate the cooperation that was extended to us during our review. If you
have any questions, please free to contact Joyce Werking at extension 8097 or Kenneth
Lish at extension 5004.


cc:    Mary Santonastasso, Division Director, DIAS
       Dale Bell, Deputy Division Director, DIAS
       Alex Wynnyk, Branch Chief, CAAR/DIAS
       Debra Pettitt, Deputy Assistant Inspector General for Audits, NASA




                                           3
                            Audit Findings and Recommendations


1. Improvements Needed in Reporting of ARRA Jobs, Vendor Payments, and
   Expenditures

        IGES incorrectly reported three of the eight data elements we reviewed in its
March and June 2010 quarterly ARRA reports. For the March reporting period, the
Institute did not correctly report the number of jobs, vendor payments, and expenditures.
The reporting errors for the number of jobs and vendor payments continued into the June
2010 reporting period.

Job Estimates Reported Need to Be Complete and Accurate

        Section 5.2.2 of OMB Memorandum M-10-08 1 requires prime recipients to
estimate the total number of jobs funded or paid for by Recovery Act funding in each
reporting period. In addition, section 5.7 requires recipients to generate estimates of jobs
impact by directly collecting specific data from subrecipients and vendors on the total
jobs created or retained by ARRA-funded projects and activities.

        Contrary to the OMB requirements, IGES incorrectly reported the jobs numbers
in the March and June 2010 ARRA reports because it did not calculate estimates using
the “jobs funded/ paid” methodology and did not include vendor jobs. Specifically, the
Institute mistakenly reported jobs based on the budgeted instead of actual number of
hours each employee worked on the ARRA grant. As a result, IGES over-reported jobs
by 1.78 full-time equivalents (FTE) in March 2010 and under-reported jobs by 1.24 FTEs
in June 2010, or 37 percent and 18 percent, respectively.

        In addition, IGES had not established a process for obtaining job estimates from
vendors because officials were not aware of this specific OMB reporting requirement. As
of June 30, 2010, the Institute had not requested any jobs reporting for 27 vendor
payments totaling $70,130. While our review disclosed that these vendor payments
likely did not result in any ARRA jobs required to be reported, it is nevertheless
important for IGES to establish appropriate processes to be fully compliant with OMB
requirements to ensure any future vendor jobs are properly reported.




1
        OMB Memorandum M-10-08, Updated Guidance on the American Recovery and Reinvestment
Act – Data Quality, Non-Reporting Recipients, and Reporting of Job Estimates, issued December 18, 2009.


                                                   4
Vendor Payments Need To Be Accurately Reported

        Section 2.4 of OMB Memorandum M-09-21 2 requires prime recipients to report
on a cumulative basis the total number and dollar of vendor payments under $25,000 in
each quarterly report. However, IGES did not report its vendor payment information on a
cumulative basis, but mistakenly reported the data on a quarterly basis. As a result, the
Institute under-reported six vendor payments totaling $9,037 in the March 2010 report
and under-reported 23 payments totaling $65,956 in the June 2010 report. 3

ARRA Expenditures Reported Need To Be Accurate

        Section 4.2 of OMB Memorandum M-09-21 states “Prime recipients, as owners
of the data submitted, have the principal responsibility for the quality of the information
submitted.” Specifically, the prime recipient is responsible for (a) implementing internal
control measures to ensure accurate and complete information and (b) performing data
quality reviews to identify reporting errors and making appropriate and timely
corrections. However, IGES did not establish a sufficient data quality review process to
ensure all ARRA data elements were accurate and complete. As a result, ARRA
expenditures in the March 2010 report were under-reported by $885 due to a human error
in posting the information into the quarterly report template.
Increased Public Scrutiny on the Use of Recovery Act Funds

        As a result of the errors identified in the three key ARRA data fields, IGES had
not effectively achieved the unprecedented accountability and transparency goals
required by the Recovery Act. While the Institute only has one ARRA grant, the award
totaling $7.2 million is a significant amount of its NSF funding, thus it is essential that
the American public and other stakeholders be provided accurate information on the
number of ARRA jobs created or retained, vendor payments, and the total amount of
funds expended. Pursuant to its NSF grant terms and conditions, IGES is obligated to
provide accurate and complete reporting each quarter on how ARRA funds are utilized to
help stimulate the country's economic recovery.


Factors Contributing to ARRA Reporting Errors
        These reporting errors occurred because IGES lacked (i) a thorough
understanding of the intricacies of federal ARRA reporting requirements, (ii) formal
established procedures for key ARRA reporting fields, and (iii) an adequate data quality
review process to preclude reporting errors. According to cognizant IGES officials, the
volume and vagueness of OMB reporting guidance were obstacles for developing a

2
         OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant
to the American Recovery and Reinvestment Act of 2009, issued June 22, 2009.

3
         For the June 2010 quarter, IGES corrected the vendor payments error during the continuous
correction period. However, IGES was not able to correct the vendor payments error for March 2010
because the continuous correction period had already closed for that quarter.

                                                   5
proficiency in ARRA reporting. As a small recipient, officials were faced with the
challenge of how to handle the increased responsibility of reading, interpreting, and
correctly applying the extensive OMB and supplemental NSF ARRA reporting guidance
without any additional grants management staff.

        Although the Institute had developed basic ARRA policies and procedures, it
lacked formal guidance for reporting and complying with key ARRA grant requirements.
Since IGES has only one ARRA award, it is not expected that the Institute would develop
extensive policies and procedures for compiling and reporting ARRA data. However,
there does need to be some guidance, albeit limited guidance, added to provide adequate
internal control measures to meet the enhanced Recovery Act accountability and
transparency goals.

        Furthermore, IGES’ independent review process for its quarterly ARRA report
was not complete and comprehensive because the reviewer only checked for blank fields
and “obvious errors” in the report template. Without validating the reported data fields to
source documentation maintained in its ARRA files, the IGES review process lacked
assurance that the calculations made were correct or that there were no transposition
errors that occurred while posting the data.

Recommendations:
We recommend that the NSF Director of the Division of Institution and Award Support,
coordinate with the cognizant audit agency, as needed, to require IGES to:

1.1 Establish and implement a policy to ensure staff members responsible for ARRA
reporting stay informed of OMB and NSF changes and updates to Recovery Act
reporting requirements and seek OMB and/or NSF technical assistance for clarification of
any ambiguities.

       Institute of Global Environment and Society Response:

       IGES concurred with the recommendation and stated a policy has been created to
       ensure staff review changes and updates to ARRA reporting requirements one
       month prior to the due date for quarterly reporting.

       OIG Comments:

       IGES’ response met the intent of the recommendation. However, the Institute
       should note that in the past, some OMB and NSF guidance was updated only one
       or two weeks prior to the end of the ARRA reporting quarter. Thus, IGES needs
       to ensure staff check for last minute changes and updates to the Recovery Act
       reporting requirements.




                                            6
1.2 Improve its internal controls for ARRA reporting as follows:

a.   Develop policies and procedures covering key aspects of ARRA reporting. At a
     minimum, such guidance should include processes for ARRA jobs reporting,
     including vendor job estimates, and cumulative reporting of vendor payments.

       Institute of Global Environment and Society Response:

       IGES concurred with the recommendation and stated that it has already developed
       ARRA reporting policies and procedures. However, officials disagreed with our
       audit conclusion that the Institute lacked a thorough understanding of the
       intricacies of federal ARRA reporting requirements. Rather, IGES believed that
       “relatively minor procedural errors were responsible for the errors in the reports.”

       OIG Comments:

       Although IGES disagreed with certain aspects of the audit finding, the Institute’s
       actions taken to develop and implement formal ARRA reporting policies and
       procedures are fully responsive to our recommendation. Such written guidance
       will help ensure accurate, complete, and compliant Recovery Act reporting in the
       future.

       With regards to the Institute’s position that the ARRA reporting errors identified
       were caused by “relatively minor procedural errors” and not a lack of thorough
       understanding of the OMB reporting requirements, we reiterate that it is the
       responsibility of the prime grant recipient to ensure the reported data was
       accurate. As such, sound internal controls required IGES to establish written
       procedures for compliant ARRA reporting and adequate monitoring to ensure the
       established procedures were correctly implemented. However, our review
       disclosed that IGES lacked sufficient written procedures to ensure compliant
       ARRA reporting. Without such guidance, it incorrectly reported Recovery Act
       jobs and vendor payments. Therefore, we reaffirm our conclusion that these
       “procedural errors” occurred because of a lack of comprehensive understanding of
       the federal ARRA reporting requirements.




                                            7
b.   Establish a formal data quality review process to ensure ARRA quarterly reports are
     accurate, complete, and fully compliant with OMB reporting requirements.

        Institute of Global Environment and Society Response:

        IGES concurred with the recommendation and stated that a formal data quality
        process has been instituted.

        OIG Comments:

        IGES’ actions taken are responsive to the recommendation.


2. Procedures Needed for Ensuring ARRA Vendors Are Not Suspended or
   Debarred
        OMB federal grant regulations 4 and NSF terms and conditions restrict grant
recipient sub-awards and contracts to certain parties that are debarred, suspended, or
otherwise excluded from participating in federal assistance programs or activities.
Accordingly, for contracts over $25,000 and all sub-awards, prime recipients are required
to check the entity’s Excluded Parties List System (EPLS) 5 status or obtain a
certification from the entity regarding its EPLS status and that of its principal employees
prior to contract award.

        However, IGES had not established a process to check the entity’s EPLS status or
obtain the entity’s EPLS certification. While the Institute did not have any ARRA
vendor contracts over $25,000 at the time of our review, the lack of procedures for
consistently performing such checks increases the risk that ARRA funds could be
potentially awarded to debarred or suspended parties in the future.

       Verifying EPLS status is imperative as the credibility and integrity of Recovery
Act projects, as well as other projects funded by NSF, can be compromised if business is
being conducted with persons and/or entities debarred or suspended. Given the
unprecedented accountability goals of the Recovery Act, such a risk is not acceptable.
This control weakness occurred because IGES officials were unfamiliar with the specific
requirements to check the entity’s EPLS status or obtain certifications for vendor
contracts over $25,000 and all subawards prior to contract award.




4
        2 CFR Part 215.13, Debarment and suspension, Uniform Administrative Requirements for Grants
and Agreements with Institutions of Higher Education, Hospitals, and Other Non-profit Organizations
(Formerly OMB Circular A-110).
5
         EPLS provides a single comprehensive list of individuals and firms excluded by federal
government agencies from receiving federal contracts, federally-approved subcontracts, and certain types
of federal financial and nonfinancial assistance programs.

                                                    8
Recommendation:

2. We recommend that the NSF Director of the Division of Institution and Award
   Support, coordinate with the cognizant audit agency, as needed, to require IGES to
   establish formal procedures requiring that the EPLS be reviewed and the status
   documented for all vendor contracts over $25,000.

       Institute of Global Environment and Society Response:

       IGES has established and implemented a procedure for checking EPLS vendor
       debarment status as part of its standard procurement sequence. Therefore, the
       Institute disagreed with the recommendation; stating it had already been
       implemented.

       OIG Comments:

       IGES’ actions taken are responsive to the audit recommendation. However, the
       recommendation remains open until NSF determines during the formal audit
       resolution process whether IGES corrective actions taken are appropriate.
       Therefore, the Institute should provide NSF with documentation of its revised
       procedure on the subject matter as part of its Corrective Action Plan.




                                           9
                                                                              Appendix A

                  Background, Objectives, Scope, and Methodology

Background:

Recovery Act Reporting Requirements:

         On February 17, 2009, the American Recovery and Reinvestment Act of 2009
(Recovery Act or ARRA) was enacted to help the nation recover from a severe economic
downturn. The Recovery Act emphasizes unprecedented levels of accountability and
transparency over the $787 billion of public funds committed by Congress, of which
$3 billion was received by NSF. The public expects that the use of ARRA funds will
result in a positive impact to our nation's economy, including jobs creation and retention.
Accordingly, Section 1512 of the Recovery Act requires recipients to submit reports on
ARRA activity no later than 10 days after the end of each reporting quarter. The first
ARRA quarterly report was required to be submitted for the period ending September 30,
2009.

        ARRA reporting instructions are contained in the Office of Management and
Budget (OMB) guidance. OMB is the primary agency responsible for providing Section
1512 reporting guidance used by federal agencies, grant recipients, and grant subrecipients.
The federal guidance clearly establishes that recipients have primary responsibility for the
quality of the data submitted. In addition, NSF issued supplemental guidance to its
recipients for ARRA reporting.

         OMB published a Recipient Reporting Data Model to define the 99 data elements
required to be reported for each ARRA grant on June 22, 2009. Clarifications to the
elements were published by OMB as a set of Frequently Asked Questions with extensive
updates published to address both recipient and federal agency concerns; many of which
were issued only a short time prior to the end of each ARRA reporting quarter. Some of
the key data elements required to be reported include award number; quarterly award
activities; funds received/invoiced; award expenditures; funds received/invoiced; number
of and description of jobs created or retained; number and dollar of sub-awards and vendor
payments; project status; and final report indicator.

NSF Recipient Information:

        The Institute of Global Environment and Society, Inc, (IGES) is a non-profit, tax
exempt research institute, incorporated in the State of Maryland. The Institute was
established to improve the understanding and prediction of the variation of the Earth’s
climate through scientific research on climate variability and predictability. IGES has
received federal grants from NSF, National Oceanic and Atmospheric Administration 6
(NOAA), and National Aeronautics and Space Administration (NASA) to fund a
6
       NOAA is an agency within the U. S. Department of Commerce.

                                              10
multi-year basic research project for a team of scientists working together at its Center for
Ocean-Land-Atmosphere Studies (COLA) on the basic problem of the predictability of
the present climate. With continuing multi-agency support, COLA has become a national
center of excellence for research on climate variability and predictability.

       The Institute has been awarded one NSF ARRA grant for $7.2 million, which
accounted for almost half of its total NSF grant portfolio of seven awards totaling
$15.7 million. As of June 30, 2010, ARRA expenditures totaled $731,340 (10.2 percent
of ARRA funding). IGES had neither issued nor received any ARRA sub-awards
funded by NSF at the time of our review.

Review Objectives:

        Our review objectives were to determine whether IGES had established an
adequate system of internal controls to provide reasonable assurance that (1) Recovery
Act funds were segregated and separately tracked in its project cost accounting system
and (2) quarterly reporting was timely, accurate, and fully compliant with Section 1512
reporting requirements.

Scope and Methodology:

        Our review focused on IGES’ March 2010 ARRA report, but included review of
its June 2010 report to assess the organization’s progress and improvements made in
reporting processes. We reviewed the organization’s processes for compiling and
reporting Recovery Act data elements. Of the 99 data fields required to be reported for
each ARRA grant, we selected key data elements that were either deemed critical to
ensuring transparency or that were considered more at risk of being reported
inconsistently or inaccurately. Accordingly, our review focused on the following eight
data elements: the number of jobs created or retained, funds received/invoiced,
expenditures, vendor payments, sub-award amounts, quarterly activities/project
description, project status indicator, and final report status. To gain an understanding of
IGES’ processes for compiling and reporting of the ARRA data elements, we conducted a
limited review of internal controls related to our audit objectives. Our review included
the following steps:

       •   Reviewed criteria for ARRA reporting including Section 1512 of the
           Recovery Act and OMB and NSF guidance.

       •   Reviewed IGES policies, procedures, and processes for collecting,
           compiling, reviewing, and reporting ARRA data.

       •   Interviewed cognizant IGES officials, including Principal
           Investigators, to gain an understanding of their role in the ARRA
           project management and reporting process.




                                             11
       •   Performed analytical procedures to understand and evaluate IGES’
           Recovery Act reporting processes and related controls. This included
           the process for reporting quarterly activities/project description,
           project status, and final report status indicator; and ensuring ARRA
           funds were not awarded to debarred or suspended parties.

       •   Performed non-statistical sampling procedures to determine the
           reasonableness of the reported data elements when compared to
           supporting documentation for funds received/invoiced, expenditures,
           vendor payments, and sub-award amounts.

       •   Reconciled the number of jobs created or retained to payroll records to
           determine the reasonableness of the number of jobs reported for the
           ARRA grant.

       •   Discussed fieldwork results with IGES management officials.

        The onsite IGES review work was performed from July 12-14, 2010, with
additional information obtained through February 2011. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for the findings and conclusions contained in the
report.




                                           12
    To obtain a copy of the Auditee Response to this report,

     Please contact us at oig@nsf.gov or at (703) 292 7100.

In your request please specify the audit title and report number.
